                   AUDIT REPORT

                    Audit of NRC’s Personnel Security
                    Clearance Program for Employees


                     OIG-10-A-09 February 23, 2010




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                         February 23, 2010


MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   AUDIT OF NRC’S PERSONNEL SECURITY CLEARANCE
                           PROGRAM FOR EMPLOYEES (OIG-10-A-09)


Attached is the Office of the Inspector General’s (OIG) report, Audit of NRC’s Personnel
Security Clearance Program for Employees.

The report presents the results of the subject audit. Agency comments provided during
and subsequent to a January 28, 2010, exit conference have been incorporated, as
appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Audit
Team, at 415-5912.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Jr., Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Nader L. Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Officer
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl A. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                     Audit of NRC’s Personnel Security Clearance Program for Employees




EXECUTIVE SUMMARY

   BACKGROUND

        The Nuclear Regulatory Commission’s (NRC) personnel security
        clearance program strives to implement measures to ensure that agency
        staff can be trusted to work with and protect classified information and to
        prevent the hiring of employees who might be untrustworthy or unsuitable
        for Federal employment. At NRC, the Personnel Security Branch (PSB)
        administers the personnel security clearance program. PSB staff report to
        the Division of Facilities and Security (DFS), which is part of the Office of
        Administration (ADM).

        The Atomic Energy Act of 1954, as amended, requires all NRC employees
        to have a security clearance, but allows employees to begin working for
        NRC prior to their clearance — provided the Commission determines that
        such employment is in the national interest and the employee does not
        have access to classified information. Today, a significant number of new
        NRC employees are permitted to begin work prior to receiving a security
        clearance, but only after PSB conducts a review of the individual’s
        background information as reported by the individual, credit history, and
        criminal history; evaluates the results; and determines there are no factors
        that may constitute a security risk to the agency. This approval is referred
        to as a pre-appointment investigation waiver or a 145b waiver.

        After NRC grants an initial approval to begin work (with no access to
        classified information), the agency requests a full background investigation
        from the Office of Personnel Management (OPM). Once the OPM
        background investigation is returned to NRC, PSB staff adjudicate the
        results by reviewing the investigation report. The adjudicative process is
        an examination of a sufficient period of a person's life to make a
        determination to grant or deny a security clearance.

        In 2005, as a result of a substantial increase in hiring, ADM shifted its
        resources toward completing its own pre-appointment investigation and
        processing of 145b waivers. This resource realignment was effected to
        support the agency’s higher priority to complete ongoing hiring initiatives
        in a timely manner. For the period FY 2005 through FY 2008, background
        investigations increased from 925 to 1,593, or approximately 72 percent.

        As a result of this shift in resources, a considerable backlog of cases
        requiring adjudication developed after receipt of OPM closed background
        investigations. DFS management stated that this backlog, consisting
        primarily of contractor and licensee clearance requests, was 1,121 cases
        in January 2009. Management also asserted that the backlog has been
        reduced in the last 12 months to 350 cases.


                                        i
                                  Audit of NRC’s Personnel Security Clearance Program for Employees



PURPOSE

      The purpose of this audit was to determine whether (1) NRC is in
      compliance with external and internal personnel security clearance
      requirements, and (2) NRC’s personnel security clearance program is
      efficiently managed.

RESULTS IN BRIEF

      Although it is NRC’s policy to ensure that personnel security
      determinations are made in accordance with external and internal
      requirements, NRC is not fully in compliance with established timeliness
      requirements for processing personnel security clearances. Furthermore,
      NRC’s personnel security clearance program lacks sufficient management
      controls and oversight to measure the program’s efficiency and assign
      accountability for the program’s performance.

      Timeliness Requirements Not Met

      The Intelligence Reform and Terrorism Prevention Act of 2004 provides
      timeliness requirements for processing Federal personnel security
      clearance investigations. NRC has not fully met the adjudication and
      reinvestigation timeliness requirements because DFS management has
      not implemented a procedure to routinely monitor and follow up on all
      case files to ensure cases are processed timely. Additionally,
      management lacks useful and reliable reports to track the status of
      clearance investigations through the various stages of the investigative
      process. Delays in completing initial investigations may hinder agency
      productivity, while delays in completing reinvestigations can lead to
      increased security risks.

      Agency Lacks Personnel Security Performance Measures

      Federal control standards require the establishment and review of
      performance measures and indicators. At the start of this audit, NRC
      lacked performance measures to assess the efficiency of NRC’s
      personnel security clearance program. In response to a 2004 Office of the
      Inspector General (OIG) audit report recommendation, DFS added a
      timeliness performance measure to the FY 2005 ADM Operating Plan for
      the processing of personnel security investigations. In FY 2006, deeming
      the timeliness performance measure unattainable, management removed
      the measure from the plan. Without performance measures, the agency’s
      ability to assess personnel security clearance program efficiency and
      assign accountability for the program performance is limited.




                                    ii
                                 Audit of NRC’s Personnel Security Clearance Program for Employees




RECOMMENDATIONS

     A draft report initially made five recommendations to improve the agency’s
     personnel security clearance program for employees. Prior to the
     issuance of this final report the agency implemented two of the
     recommended measures. Therefore, OIG removed the two
     recommendations that were already addressed, and this report makes
     three recommendations. A consolidated list of these recommendations
     appears in Section V of this report.

AGENCY COMMENTS

     Prior to and subsequent to a January 28, 2010, exit conference, agency
     senior executives provided suggested revisions to the discussion draft
     report for OIG’s consideration. This final report incorporates revisions
     made, where appropriate, as a result of the agency’s suggestions.




                                   iii
             Audit of NRC’s Personnel Security Clearance Program for Employees




[Page intentionally left blank.]




               iv
                              Audit of NRC’s Personnel Security Clearance Program for Employees




ABBREVIATIONS AND ACRONYMS

       ADM     Office of Administration

       DFS     Division of Facilities and Security

       IRTPA   The Intelligence Reform and Terrorism Prevention Act
               of 2004

       NRC     Nuclear Regulatory Commission

       OIG     Office of the Inspector General

       OPM     Office of Personnel Management

       PSB     Personnel Security Branch




                                v
             Audit of NRC’s Personnel Security Clearance Program for Employees




[Page intentionally left blank.]




               vi
                                                   Audit of NRC’s Personnel Security Clearance Program for Employees




TABLE OF CONTENTS

      EXECUTIVE SUMMARY.............................................................................. i

      ABBREVIATIONS AND ACRONYMS ......................................................... v

      I.     BACKGROUND .................................................................................. 1

      II.    PURPOSE........................................................................................... 4

      III.   FINDINGS ........................................................................................... 5

             A.     TIMELINESS REQUIREMENTS NOT MET ............................................ 5

             B.     AGENCY LACKS PERSONNEL SECURITY
                    PERFORMANCE MEASURES .......................................................... 11

      IV.    AGENCY COMMENTS ..................................................................... 13

      V.     CONSOLIDATED LIST OF RECOMMENDATIONS ......................... 14

    APPENDIX

      SCOPE AND METHODOLOGY................................................................ 15




                                                     vii
             Audit of NRC’s Personnel Security Clearance Program for Employees




[Page intentionally left blank.]




              viii
                                    Audit of NRC’s Personnel Security Clearance Program for Employees




I.   BACKGROUND

               Federal personnel security programs are designed to protect
               U.S. national security interests by ensuring the reliability and
               trustworthiness of all Government employees. All Government
               employees must undergo a background investigation to work for
               the Federal Government. The type of investigation required
               depends on the type of work the individual will perform. When
               work requires access to classified information, a favorable
               adjudication of an appropriate investigation of the employee’s
               background, a demonstrated need-to-know, and a signed
               nondisclosure agreement are required.

               The Nuclear Regulatory Commission’s (NRC) personnel
               security clearance program strives to implement measures to
               ensure that agency staff can be trusted to work with and protect
               classified information and to prevent the hiring of employees
               who might be untrustworthy or unsuitable for Federal
               employment. At NRC, the Personnel Security Branch (PSB)
               administers the personnel security clearance program. PSB
               staff report to the Division of Facilities and Security (DFS),
               which is part of the Office of Administration (ADM).

               Atomic Energy Act and Section 145b

               The Atomic Energy Act of 1954, as amended, requires all NRC
               employees to have a security clearance, but allows employees
               to begin working for NRC prior to their clearance — provided the
               Commission determines that such employment is in the national
               interest and the employee does not have access to classified
               information. Today, a significant number of new NRC
               employees are permitted to begin work prior to receiving a
               security clearance, but only after PSB conducts a review of the
               individual’s background information as reported by the
               individual, credit history, and criminal history; evaluates the
               results; and determines there are no factors that may constitute
               a security risk to the agency. This approval is referred to as a
               pre-appointment investigation waiver or a 145b waiver.1




1
 The term “145b waiver” refers to section 145b of the Atomic Energy Act of 1954, as
amended, which provides NRC the authority to grant a pre-appointment investigation waiver.


                                             1
                                      Audit of NRC’s Personnel Security Clearance Program for Employees



                NRC’s Personnel Security Clearance Program

                After NRC grants an initial approval to begin work (with no
                access to classified information), the agency requests a full
                background investigation, appropriate for either an “L” (secret),
                “L(H)” (high public trust),2 or “Q” (top secret) clearance, from the
                Office of Personnel Management (OPM).3 Once the OPM
                background investigation is returned to NRC, PSB staff
                adjudicate the results by reviewing the investigation report. The
                adjudicative process is an examination of a sufficient period of a
                person's life to make a determination to grant or deny a security
                clearance. Adjudicative guidelines provide the PSB staff
                members with specific criteria to aid in the determination
                process.

                NRC maintains employee personnel security information, such
                as background investigations, credit checks, and fingerprint
                checks, in paper files. When the files are not in use, PSB stores
                them in a secure, alarmed, file room (see Figures 1 and 2,
                below). An automated data system, referred to as the
                Integrated Personnel Security System, is also used to
                electronically store personnel security information, such as type
                of clearance and date of last investigation.




                Figure 1. File Room Entrance Secured         Figure 2. PSB File Room




2
  The L(H) designation is used for employees (e.g., resident inspectors) who do not require a
Q clearance because they do not work with Secret Restricted Data or Top Secret Restricted
Data or Top Secret National Security Information. Individuals designated as L(H) are initially
investigated with a Background Investigation, which is less extensive than the Single Scope
Background Investigation required for a Q level clearance. These individuals are then
reinvestigated at the L level, but more frequently than those with regular L clearances.
3
  In lieu of an OPM investigation and report, NRC may accept an investigation from another
Federal Government department or agency that conducts personnel security investigations
(current within the most recent 5 years), provided that an equivalent investigation and access
authorization has been granted to the individual by another Government agency on the basis
of such an investigation and report. This acceptance of a pre-existing equivalent
investigation is referred to as “reciprocity.”

                                               2
                      Audit of NRC’s Personnel Security Clearance Program for Employees



In 2005, as a result of a substantial increase in hiring, ADM
shifted its resources toward completing its own pre-appointment
investigation and processing of 145b waivers. This resource re-
alignment was effected to support the agency’s higher priority to
complete ongoing hiring initiatives in a timely manner. For the
period FY 2005 through FY 2008, background investigations
increased from 925 to 1,593, or approximately 72 percent.

As a result of this shift in resources, a considerable backlog of
cases requiring adjudication developed after receipt of OPM
closed background investigations. DFS management stated
that this backlog, consisting primarily of contractor and licensee
clearance requests, was 1,121 cases in January 2009.
Management also asserted that the backlog has been reduced
in the last 12 months to 350 cases.

Types of Clearances Issued

As of November 2009, 28 NRC employees were working under
pre-appointment investigation waivers, 1,038 employees had Q
clearances, 3,046 had L clearances, and 177 were designated
as L(H) (see Figure 3).

Figure 3

             NRC Employees by Clearance Category
                    as of November 2009


                                         28
                                                         1,038



                                                                 177

                     3,046



    "Q" Top Secret     "L(H)" High Public Trust     "L" Secret    Pre-Appointment

Source: OIG-generated based on data obtained from PSB

Resources Allocated

The PSB staff currently consists of 9 NRC employees (8
Personnel Security Specialists and 1 Senior Personnel Security
Specialist) who adjudicate cases and 7 contract staff who
perform administrative duties. During this audit, the PSB
Branch Chief was promoted to the position of Deputy Director,

                               3
                                     Audit of NRC’s Personnel Security Clearance Program for Employees



               Division of Administrative Services. A Senior Personnel
               Security Specialist was serving as the Acting PSB Branch Chief
               while a search to fill the Branch Chief position was underway.
               On December 20, 2009, the Branch Chief position was filled.

               During FY 2009, NRC obligated $1.73 million for the Personnel
               Security Program and on background investigations of
               employees, contractors, and licensees.4


II.   PURPOSE

               The audit objectives were to determine whether (1) NRC is in
               compliance with external and internal personnel security
               clearance requirements, and (2) NRC’s personnel security
               clearance program is efficiently managed.

               See the report appendix for a description of the audit scope and
               methodology.




4
 PSB processes clearance investigations for NRC employees, contractors, and licensees.
This audit focuses primarily on the clearance investigation process for NRC employees,
although implementation of recommendations in this report should also improve contractor
and licensee clearance processing. In some cases, NRC employee data cannot be
separated from contractor and licensee data in OPM reporting obtained. Exceptions of this
nature are noted, as necessary, in this report.

                                              4
                                      Audit of NRC’s Personnel Security Clearance Program for Employees




III. FINDINGS

                Although it is NRC’s policy to ensure that personnel security
                determinations are made in accordance with external and
                internal requirements, NRC is not fully in compliance with
                established timeliness requirements for processing personnel
                security clearances. Furthermore, NRC’s personnel security
                clearance program lacks sufficient management controls and
                oversight to measure the program’s efficiency and assign
                accountability for the program’s performance.

        A. Timeliness Requirements Not Met

                The Intelligence Reform and Terrorism Prevention Act of 2004
                (IRTPA) provides timeliness requirements for processing
                Federal personnel security clearance investigations. NRC has
                not fully met the adjudication and reinvestigation timeliness
                requirements because DFS management has not implemented
                a procedure to routinely monitor and follow up on all case files
                to ensure cases are processed timely. Additionally,
                management lacks useful and reliable reports to track the status
                of clearance investigations through the various stages of the
                investigative process. Delays in completing initial investigations
                may hinder agency productivity, while delays in completing
                reinvestigations can lead to increased security risks.

                Timeliness Requirements

                IRTPA timeliness requirements address both adjudication of
                clearance investigations and initiation of reinvestigations.

                        Adjudicative Timeliness

                The IRTPA requires that agencies make a determination on at
                least 80 percent of all applications for a personnel security
                clearance within an average of 120 days after the application for
                a security clearance is received by an authorized investigative
                agency (e.g., OPM).5 This 120-day-average requirement allows
                90 days for completing the investigative phase of the clearance
                review and 30 days for completing the adjudicative phase of the

5
  This “fastest 80 percent” requirement was put in place to provide a more realistic portrayal
of agency performance. Delays for the 20 percent of cases that are not reported are typically
due to the presence of serious issues that require further, extensive investigation or the
absence of a required third party record. Inclusion of these cases would upwardly skew
timeliness reporting.


                                               5
                                     Audit of NRC’s Personnel Security Clearance Program for Employees



                clearance review.6 This audit focused on NRC’s adjudicative
                timeliness, as investigative timeliness falls under OPM
                jurisdiction and is therefore outside of NRC’s control.

                        Reinvestigation Timeliness

                The IRTPA also requires that NRC initiate a reinvestigation
                every 5 years for Q and every 10 years for L clearances.7
                Employees may also be reinvestigated if, at any time, there is
                reason to believe they no longer meet the standards for access
                to classified information.

                Investigation and Reinvestigation Timeliness Requirements
                Not Met

                NRC is not in compliance with respect to meeting established
                timeliness requirements for processing personnel security
                clearances. Specifically, NRC has not met IRTPA timeliness
                requirements for (1) adjudication of clearance investigations or
                (2) initiation of clearance reinvestigations.

                        Adjudicative Timeliness

                NRC was not in compliance with IRTPA adjudication timeliness
                requirements. Review of an OPM "Adjudication Timeliness
                Report" confirms that current IRTPA requirements have not
                been met for the first three quarters of FY 2009 (see Figure 4,
                next page).8




6
  In December 2009, IRTPA requirements changed to a 60-day-average period requirement.
This new requirement allows 40 days to complete the investigative phase of the clearance
review and 20 days to complete the adjudicative phase of the clearance review on at least 90
percent of all applications for a personnel security clearance.
7
  NRC’s L(H) designation is unique to NRC; therefore, it is not addressed by the IRTPA.
However, NRC Management Directive 12.3, NRC Personnel Security Program, requires L(H)
reinvestigations be conducted every 5 years. Management Directive 12.3 also reaffirms the
reinvestigation timeliness requirements found in the IRTPA for Q and L clearances.
8
 OPM’s report combines timeliness results for NRC employees, contractors, and licensees.
These combined results are reflected in Figure 4.


                                              6
                   Audit of NRC’s Personnel Security Clearance Program for Employees



Figure 4

             Adjudication Timeliness, Fastest 80 Percent
               October 1, 2008 through June 30, 2009
                                    N=978
  400
                               62 percent of adjudications occurred
  300                        outside of the 30-day IRTPA requirement

  200

  100

    0
           0-30   31-60     61-90      91-120     121-150     151-180    181-365
                                Days to Complete

Source: OIG-generated based on data obtained from OPM


OIG’s review also revealed that one employee was granted a
145b waiver and has been working at NRC since April 2005
without having the initial investigation adjudicated due to
significant security issues. Furthermore, PSB staff did not take
any adjudicative action for more than a year after the OPM
investigation was completed on three employees’ investigative
files. In one case, an OPM investigation of an NRC employee
was completed in June of 2007 and the case was assigned to a
Personnel Security Specialist. Because the results contained
classified information from the Federal Bureau of Investigation
with regard to issues of foreign influence, PSB staff secured the
file in a safe. However, the file remained in the safe, untouched,
until it was discovered in July of 2009 and reassigned to a
different Personnel Security Specialist. As of November 2009,
clearances have been granted for two of the four NRC
examples identified above.

        Reinvestigation Timeliness

OIG identified 161 NRC employees whose reinvestigations were
more than 1 year past due. In one case, a Branch Chief’s last
investigation for an L clearance (required every 10 years) was
completed more than 13 years ago, in May of 1996. Of the 161
past due reinvestigations, 43 were for reinvestigations of NRC
employees with Q clearances.




                            7
                      Audit of NRC’s Personnel Security Clearance Program for Employees



Reinvestigations more than 1 year past due by clearance type
are depicted in Figure 5.

Figure 5

           Reinvestigations > 1 Year Past Due by Clearance Type
                             as of September 2009



                                    43
                                                               Q - Top Secret

                 86                                            L(H) - High Public Trust
                                                               L - Secret
                                    32




Source: OIG-generated based on data obtained from PSB



Lack of Management Oversight

PSB is not meeting adjudication or reinvestigation timeliness
requirements because management lacks useful and reliable
reports to track the status of clearance investigations through
the various stages of the investigative process. Additionally,
management has not implemented procedures to routinely
monitor and follow up on all case files to make sure cases are
handled expeditiously.

During the course of this audit, OIG conveyed this finding to
PSB management who subsequently implemented an internal
procedure to monitor cases as of December 2009. OIG verified
this and removed the draft report recommendation to develop
and implement a written procedure to routinely monitor and
follow up on all personnel security case files.

       Useful Routine Reporting Limited

Currently, there is no complete report that shows when
adjudications or reinvestigations are overdue. Additionally,
limited useful personnel security reports further restricts PSB’s
ability to track clearance investigations and reinvestigations.
The Integrated Personnel Security System contains 11
predefined adjudication reports, but only one, which lists all
145b applicants in a pending or active status, can be used to
help PSB assess whether it is completing adjudications in a
timely manner. PSB is also unable to track an investigation

                               8
                   Audit of NRC’s Personnel Security Clearance Program for Employees



from the time it is sent to OPM until it is returned from OPM and
the clearance granted.

Furthermore, for almost 2 years, a report intended to notify staff
of upcoming employee reinvestigations has not been operating
as intended. The report, titled “Notifications,” is supposed to list
individuals requiring reinvestigations. However, the report is
inaccurate because it includes employees who have already
been reinvestigated, and individuals who no longer work for
NRC. Lack of reliable data forces staff to go through the report
manually and decide which individuals actually require a
reinvestigation before they can initiate the process. The
“Notifications” report has reportedly been upgraded during the
course of this audit to allow the removal of persons having an
investigation started or completed. DFS staff are in the process
of verifying whether the upgraded report is now operating as
intended.

       No Routine Monitoring

Interviews with management and staff confirmed that there is no
routine monitoring or assessment of the status of individual
personnel security clearance case files to ensure that cases
returned from OPM are adjudicated in a timely manner.
Instead, it is up to staff to track the status of the cases they are
adjudicating on individually maintained spreadsheets.

PSB staff acknowledged that investigations sometimes "fall
through the cracks" and reported that they learn of these
instances only when someone calls to check on the status of a
clearance that has taken too long.

Productivity Concerns and Security Risks

Delays in completing initial investigations hinder agency
productivity, while delays in completing reinvestigations can
lead to increased security risks.

       Agency Productivity Hindered

Many jobs at NRC require that employees have a clearance to
enable them access to classified information to perform their
jobs. Access to classified information requires a clearance
equal to or higher than the level of information to be accessed,
and a need-to-know. Employees with a 145b waiver cannot
access classified information while awaiting clearance approval,
which hinders productivity by limiting the duties that the

                            9
                                     Audit of NRC’s Personnel Security Clearance Program for Employees



                employee can perform. This is exacerbated by an untimely
                adjudicative process.

                        Increased Security Risks

                NRC’s risk of a security breach occurring is increased because
                of delays in completing employee reinvestigations. The Joint
                Security Commission9 reported that delaying reinvestigations
                poses risks to national security because the longer individuals
                hold clearances, the more likely they are to be working with
                more critical information and systems. Also, the longer a
                reinvestigation is delayed, the greater the risk that changes in
                an individual's behavior will go undetected.

                Recommendation:

                OIG recommends that the Executive Director for Operations:

                1.     Develop routine reports that provide management with the
                       appropriate data needed to monitor and follow up on the
                       status of all personnel security case files.




9
 The Joint Security Commission was established in May 1993 by the Secretary of Defense
and the Director of Central Intelligence to review security policies and procedures. It was
convened twice and issued reports on its work in 1994 and 1999.

                                             10
                       Audit of NRC’s Personnel Security Clearance Program for Employees



B.   Agency Lacks Personnel Security Performance Measures

      Federal control standards require the establishment and review
      of performance measures and indicators. At the start of this
      audit, NRC lacked performance measures to assess the
      efficiency of NRC’s personnel security clearance program. In
      response to a 2004 Office of the Inspector General (OIG) audit
      report recommendation, DFS added a timeliness performance
      measure to the FY 2005 ADM Operating Plan for the processing
      of personnel security investigations. In FY 2006, deeming the
      timeliness performance measure unattainable, management
      removed the measure from the plan. Without performance
      measures, the agency’s ability to assess personnel security
      clearance program efficiency and assign accountability for the
      program performance is limited.

      Requirement for Performance Measures

      Performance measurement is achieved through the ongoing
      monitoring and reporting of program accomplishments,
      particularly progress towards pre-established goals.
      Performance assessments are used to analyze performance
      and seek improvements in efficiency and effectiveness. Federal
      standards require agencies to establish and monitor
      performance measures and indicators.

      Performance Measures Inadequate

      At the start of this audit, the ADM Operating Plan lacked
      performance measures to monitor the efficiency of the
      personnel security clearance program. A timeliness
      performance measure for the processing of personnel security
      investigations, once included in the ADM Operating Plan, was
      removed. Additionally, during this audit OIG reviewed the
      Performance Elements and Standards for the positions of
      Deputy Director, DFS and Branch Chief, PSB. Each of the
      documents reviewed contained a “Timeliness and Quality”
      standard that is dependent on meeting milestones and
      schedules provided in the ADM Operating Plan. OIG's review
      found that the ADM Operating Plan contained no security
      clearance processing timeliness measures.

      Lack of Management Oversight

      As a result of Audit Report OIG-04-A-11, Review of NRC's
      Personnel Security Program, ADM complied with an OIG
      recommendation and established a performance measure to

                               11
                                   Audit of NRC’s Personnel Security Clearance Program for Employees



               assess the timeliness of NRC's reinvestigation program in its FY
               2005 Operating Plan. The timeliness performance measure
               was subsequently deemed unattainable by DFS management
               and therefore was removed from its FY 2006 Operating Plan. A
               manager no longer assigned to DFS stated that NRC hiring
               increases had placed an increased demand on DFS, which had
               been unable to increase adjudicative staff to appropriately
               handle this increase in workload.10

               During the course of this audit, OIG conveyed this finding to
               DFS management and, subsequently, performance measures
               were added to the ADM Operating Plan for FY 2010. OIG
               verified this and removed the draft report recommendation to
               include a performance measure in the ADM Operating Plan to
               measure the timeliness of the security clearance process.

               Without Performance Measures, NRC Cannot Assess
               Efficiency

               The ability to assess personnel security clearance program
               efficiency and assign accountability for program performance is
               limited without performance measures. Performance measures
               are key indicators that can be used by management to assess
               the effectiveness of the program and determine where issues
               can be identified and resolved. Without performance measures,
               management cannot establish goals and measures to determine
               and improve program efficiency and effectiveness.

               Recommendations:

               OIG recommends that the Executive Director for Operations:

               2.     Include a performance measure in the Performance
                      Elements and Standards for Branch Chief, Personnel
                      Security Branch, to measure the timeliness of the
                      security clearance process.

               3.     Include a performance measure in the Performance
                      Elements and Standards for Deputy Director, Division of
                      Facilities and Security, to measure the adequacy and
                      timeliness of work products from the Personnel Security
                      Branch.



10
  Between FY 2006 and FY 2009, NRC hired 2,169 employees, resulting in a net increase of
578 full-time equivalent staff.


                                           12
                           Audit of NRC’s Personnel Security Clearance Program for Employees




IV.   AGENCY COMMENTS

         Prior to and subsequent to a January 28, 2010, exit conference,
         agency senior executives provided suggested revisions to the
         discussion draft report for OIG’s consideration. This final report
         incorporates revisions made, where appropriate, as a result of
         the agency’s suggestions.




                                   13
                            Audit of NRC’s Personnel Security Clearance Program for Employees




V.   CONSOLIDATED LIST OF RECOMMENDATIONS

     OIG recommends that the Executive Director for Operations:

           1. Develop routine reports that provide management with the
              appropriate data needed to monitor and follow up on the
              status of all personnel security case files.

           2. Include a performance measure in the Performance
              Elements and Standards for Branch Chief, Personnel
              Security Branch, to measure the timeliness of the security
              clearance process.

           3. Include a performance measure in the Performance
              Elements and Standards for Deputy Director, Division of
              Facilities and Security, to measure the adequacy and
              timeliness of work products from the Personnel Security
              Branch.




                                    14
                         Audit of NRC’s Personnel Security Clearance Program for Employees



                                                                               Appendix
SCOPE AND METHODOLOGY

       The audit objectives were to determine whether (1) NRC is in
       compliance with external and internal personnel security
       clearance requirements, and (2) NRC’s personnel security
       clearance program is efficiently managed.

       To accomplish the audit objectives, OIG obtained and analyzed
       pertinent laws, regulations, and authoritative guidance; NRC
       policies and procedures; and prior relevant NRC OIG reports to
       identify Federal and agency requirements relevant to the
       personnel security clearance program. Guidance reviewed
       included the following:

             The Intelligence Reform and Terrorism Prevention Act of
              2004.

             Executive Order No. 12968, Access to Classified
              Information.

             Revised Federal Investigative Standards.

             Government Accountability Office Standards for Internal
              Control in the Federal Government.

       Additionally, OIG reviewed investigation case files, security
       system reports, human resource documents, and internal
       communications and conducted interviews with previous and
       current staff to:

             Gain an understanding of NRC’s personnel security
              clearance program.

             Determine current issues, problems, and known
              deficiencies.

             Assess internal controls.

       Internal controls related to the audit objective were reviewed
       and analyzed. Throughout the audit, auditors were aware of the
       possibility or existence of fraud, waste, or misuse in the
       program.

       The work was conducted from June to October 2009 in
       accordance with generally accepted government auditing
       standards. Those standards require that we plan and perform

                                 15
                  Audit of NRC’s Personnel Security Clearance Program for Employees



the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions
based on our audit objectives.

The work was conducted by Beth Serepca, Team Leader; Terri
Cooper, Audit Manager; Maxine Lorette, Senior Auditor; and
Robert Woodward, Senior Auditor. We performed the audit
work at NRC headquarters in Rockville, Maryland.




                          16
